TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION
                          Office of Inspections and Evaluations




                         Internal Revenue Service’s
                     Executive Long-Term Taxable Travel



                                     December 31, 2013

                           Reference Number: 2014-IE-R005




       This report has cleared the Treasury Inspector General for Tax Administration disclosure
         review process and information determined to be restricted from public release has
                                  been redacted from this document.



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.treasury.gov/tigta
                                       DEPARTMENT OF THE TREASURY
                                             WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                               December 31, 2013


 MEMORANDUM FOR CHIEF FINANCIAL OFFICER


 FROM:                         R. David Holmgren
                               Deputy Inspector General for Inspections and Evaluations

 SUBJECT:                      Final Inspection Report – Internal Revenue Service’s Executive
                               Long-Term Taxable Travel (# IE-13-016)

 This report presents the results of our inspection to determine whether the Internal Revenue
 Service (IRS) has established guidance and procedures so that senior executives and their
 managers know when overnight long-term travel is subject to taxes.1

 Synopsis
 Per the Internal Revenue Code2 and the Revenue Ruling 93-863, an employee who performs a
 temporary duty travel assignment exceeding one year at a single or principal location is subject
 to income taxation of his/her travel expense reimbursements. Compensation for services
 (including fees, commissions, fringe benefits, and similar items) are includible in gross income.
 Similarly, remuneration for services paid by the employer to an employee are wages subject to
 employment taxes, which generally include income tax withholding and the Federal Insurance
 Contributions Act taxes.
 In Fiscal Year (FY) 2011 and FY 2012, there were 351 and 373 executives in the IRS,
 respectively.4 In FY 2011, the IRS executives received approximately $4.8 million in travel



 1
   The criteria used to determine the taxability for long-term local travel are different from the criteria used for
 overnight travel. We did not include local travel in the scope of this review.
 2
   Internal Revenue Code Section 162(a)(2).
 3
   Rev. Rul. 93-86, 1993-2 C.B 71, 1993-40 I.R.B. 4.
 4
   The number of executives for each fiscal year was calculated based on the number of executives on roll as of the
 end of the fiscal year and the number of executives who worked during the fiscal year but separated before the end
 of the fiscal year.
                                           Internal Revenue Service’s
                                       Executive Long-Term Taxable Travel



reimbursements. In FY 2012, executive travel reimbursements decreased to about $4.7 million.5
We analyzed travel information from the GovTrip6 and the Integrated Financial System7 for IRS
executives to determine whether executive travel appeared to be long term and met the criteria of
long-term taxable travel (LTTT) status.
Overall, we found that the IRS has policies in place to help senior executives and their managers
know when overnight long-term travel reimbursements are subject to employment taxes. At the
beginning of Calendar Year 2012, the IRS instituted a quarterly review process to identify
potential LTTT. In April 2013, the IRS instituted a new interim travel policy that reminds
executives to comply with the LTTT requirements.
While the reviews conducted by the Beckley Finance Center8 have identified cases where
employees may not have reported the LTTT, we noted that the IRS has not documented the
procedures for conducting the reviews. Additionally, the methodology for conducting the
reviews could be enhanced to increase the likelihood of identifying unreported LTTT.
We reviewed the travel records for 31 executives, less than 10 percent of the IRS executives
employed, to determine whether their travel appeared to be properly classified as taxable or
nontaxable. We found that the tax classification of travel for nine executives appeared to be
incorrect based on their travel patterns and the IRS’s validation, and for three executives, the
classification was not made in a timely manner as required by Internal Revenue Manual
1.32.11.9, Taxable Travel Reimbursement.9 Consequently, not all executives who were in a
LTTT status were correctly and/or timely classified as such; therefore, the IRS did not withhold
the appropriate amount of taxes on the travel reimbursements paid to some executives.
Without an effective periodic assessment and management review of the executives’ travel
activities, the IRS cannot verify that its executives’ travel expenses are properly classified as
LTTT when they should be. The inaccurate reporting of the LTTT resulted in the executives’
potentially underreporting income, Federal, State, Medicare, and Federal Insurance
Contributions Act taxes.



5
  Because some executives were not executives for the entire fiscal year, travel expenses may include travel for trips
made as nonexecutives.
6
  GovTrip is a computer application and database that provides IRS travelers with automated travel planning and
reimbursement capabilities. The system also includes authorization, reservation, and vouchering capabilities.
7
  The Integrated Financial System contains the IRS’s core financial systems, including expenditure controls,
accounts payable, accounts receivable, general ledger, and budget formulation.
8
  The Beckley Finance Center is part of the Chief Financial Officer’s Financial Management Office. It processes all
administrative accounts payable, accounts receivable, and collections, and prepares and reconciles all financial
reports and accounts.
9
  The Internal Revenue Manual is the IRS’s primary official source of instructions to staff relating to the
administration and operations of the IRS. It contains the directions employees need to carry out their operational
responsibilities.
                                                                                                                     2
                                    Internal Revenue Service’s
                                Executive Long-Term Taxable Travel




Recommendations
The Chief Financial Officer should modify and document procedures for conducting periodic
reviews to determine whether employees and managers accurately determine and report the
taxability of long-term travel. Furthermore, the Chief Financial Officer should annually inform
or remind IRS employees of the policies and procedures related to LTTT and travelers’ and
managers’ responsibility to accurately determine whether travel may be taxable.

Response
IRS management agreed with the recommendations. The IRS Chief Financial Officer plans to
modify and document standard operating procedures for conducting periodic reviews to
determine whether employees and managers accurately determine and report the taxability of
long-term travel. In addition, the Chief Financial Officer plans to annually issue a reminder to
employees reemphasizing existing LTTT procedures and reminding travelers and managers of
their responsibility to accurately determine whether their travel may be taxable. Management’s
complete response to the memorandum is included in Appendix VII.
Please contact me at (202) 927-7048 or Kevin P. Riley, Director, Office of Inspections and
Evaluations, at (972) 249-8355 if you have questions.




                                                                                                   3
                                                 Internal Revenue Service’s
                                             Executive Long-Term Taxable Travel




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Taxable Travel Procedures and Controls Are in Place;
          However, Controls Should Be Enhanced...................................................... Page 3
                    Recommendation 1:.......................................................... Page 5

          A Limited Number of Executives May Have Had
          Long-Term Taxable Travel but Failed to Report It ...................................... Page 6
                    Recommendation 2:.......................................................... Page 8


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 9
          Appendix II – Major Contributors to This Report ........................................ Page 10
          Appendix III – Report Distribution List ....................................................... Page 11
          Appendix IV – Overnight Long-Term Taxable Travel Flowchart ............... Page 12
          Appendix V – Long-Term Taxable Travel Law and Provisions .................. Page 13
          Appendix VI – Fiscal Years 2011 Through 2012 Case Review Results ...... Page 14
          Appendix VII – Management’s Response to the Draft Report ..................... Page 16
               Internal Revenue Service’s
           Executive Long-Term Taxable Travel




              Abbreviations

BFC     Beckley Finance Center
CFO     Chief Financial Officer
FICA    Federal Insurance Contributions Act
FY      Fiscal Year
IRM     Internal Revenue Manual
IRS     Internal Revenue Service
LTTT    Long-Term Taxable Travel
TIGTA   Treasury Inspector General for Tax Administration
                                            Internal Revenue Service’s
                                        Executive Long-Term Taxable Travel




                                              Background

In Fiscal Year (FY) 2011 and FY 2012, there were 351 and 373 executives in the Internal
Revenue Service (IRS), respectively.1 In FY 2011, the IRS spent approximately $4.8 million for
executive travel. In FY 2012, spending for executive travel decreased to about $4.7 million.2
Our previous review of executive travel within the IRS showed that, overall, executive travel
does not appear to be excessive.3 However, we noted that a small number of executives had
extremely high travel expenses compared to the rest of the executives and that several executives
frequently travel to the Washington, D.C., area to conduct day-to-day operations. Additionally,
we identified 14 executives in FY 2011 and 11 executives in FY 2012 who traveled to a single
destination more than 125 days in a fiscal year—more than
half of the 250 business days available to work. The cost
and frequency of travel for some executives indicate that
                                                                  An employee who performs
they may not live in the best location to economically               temporary duty travel
accomplish their roles and responsibilities. Additionally,      assignment exceeding one year
travel reimbursements related to this level of travel could     at a single or principal location
be taxable if the travel meets the requirements outlined in     is subject to income taxation of
the Internal Revenue Code4 and the Internal Revenue                  his/her travel expense
               5                                                        reimbursements.
Ruling 93-86.
The Chief Financial Officer (CFO) is responsible for IRS
travel policy and accomplishes this responsibility in part by reviewing and interpreting
Government travel regulations and developing and maintaining IRS travel procedures. The IRS
Internal Revenue Manual (IRM)6 documents the requirements for taxable travel reimbursements,
and the IRM is consistent with the Internal Revenue Code and Internal Revenue Ruling 93-86.
A Treasury Inspector General for Tax Administration (TIGTA) report of taxable travel within
the IRS revealed that IRS employees did not always identify travel expenses as long-term taxable


1
  The number of executives for each fiscal year was calculated based on the number of executives on roll as of the
end of the fiscal year and the number of executives who worked during the fiscal year but separated before the end
of the fiscal year.
2
  Because some executives were not executives for the entire fiscal year, travel expenses may include travel for trips
made as nonexecutives.
3
  Treasury Inspector General for Tax Administration, Ref. No. 2013-IE-R007, Analysis of Executive Travel Within
the Internal Revenue Service (Jul. 2013).
4
  Internal Revenue Code Section 162(a)(2).
5
  Rev. Rul. 93-86, 1993-2 C.B 71, 1993-40 I.R.B. 4.
6
  The IRM is the IRS’s primary official source of instructions to staff relating to the administration and operations of
the IRS. It contains the directions employees need to carry out their operational responsibilities.
                                                                                                                Page 1
                                            Internal Revenue Service’s
                                        Executive Long-Term Taxable Travel



travel (LTTT).7 Corrective actions related to TIGTA’s recommendations included issuing
policies and procedures for taxable travel and making them available on the CFO’s travel and
relocation website and issuing a memorandum to all heads of office reemphasizing the policies
and procedures associated with the classification of LTTT situations.
We initiated this review as a follow-up to our review related to overnight executive travel. The
overall objective of this review was to determine whether the IRS has established guidance and
procedures so that senior executives and their managers know when overnight long-term travel is
subject to taxes.8 Therefore, this review is primarily focused on the taxability of overnight travel
for employees who were executives in FYs 2011 and 2012.
This review was performed in the Office of the CFO at the IRS National Headquarters in
Washington, D.C., during the period June through September 2013. We conducted this
inspection in accordance with the Council of the Inspectors General for Integrity and Efficiency
Quality Standards for Inspections. Detailed information on our objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




7
  TIGTA, Ref. No. 2002-10-107, Controls Need to Be Strengthened Over the Internal Revenue Service’s Taxable
Travel Reporting (Jun. 2002).
8
  The criteria used to determine the taxability for long-term local travel are different from the criteria used for
overnight travel. We did not include local travel in the scope of this review.
                                                                                                              Page 2
                                    Internal Revenue Service’s
                                Executive Long-Term Taxable Travel




                                Results of Review

The IRS has established adequate guidance defining when travel is taxable and employees’ and
managers’ responsibility to make that determination; however, the guidance was not consistently
followed. Furthermore, while the CFO’s staff has established compliance procedures to review
LTTT classifications, the procedures should be enhanced and fully documented. As a result, we
found executive travelers who appeared to have had taxable travel that was not properly
classified as LTTT.

Taxable Travel Procedures and Controls Are in Place; However,
Controls Should Be Enhanced
IRM 1.32.11, Servicewide Financial Policies and Procedures, Official IRS City-to-City Travel
Guide, specifically provides guidance for taxable travel and clearly defines overnight LTTT as
travel away from home for a long enough period of time that is not considered temporary. There
are two situations that can be overnight LTTT:
   1. Travel to a single location that is expected to last more than one year.
   2. When employees perform their principal duties the majority of the time in a location
      away from their official station, and this arrangement is expected to last indefinitely or
      long enough that the new location becomes their main work location.
See Appendix IV for the overnight LTTT requirements. The tax treatment of overnight travel
expenses is governed by Revenue Ruling 93-86 and Internal Revenue Code Section 162(a)(2)
and involves an analysis of the employee’s “tax home.” See Appendix V for further details.
Following are examples of different travel scenarios:
Example 1. After the first three months of the current calendar year, Employee A is asked to
perform a temporary assignment at New Carrollton, Maryland, for two months. Employee A
performs the two-month assignment while in overnight travel status, returning to his/her
residence in Atlanta, Georgia, on weekends. Based on the facts, the reimbursement received for
the two-month temporary assignment will not be taxable income because Employee A’s tax
home is still Atlanta for the current calendar year.
Example 2. The facts are the same as in Example 1, except that following the two-month
assignment, Employee B continued going to New Carrollton to and from his/her residence and
expects to continue this pattern for an undefined period. Here, when the employee agrees to
continue to work in New Carrollton, there is a realistic expectation that the employment in a
single location will last for more than one year. The employee is no longer temporarily away

                                                                                            Page 3
                                          Internal Revenue Service’s
                                      Executive Long-Term Taxable Travel



from home, and the travel expense reimbursements are taxable at the point the expectation
changes.
Example 3. Employee C lives in Cincinnati, Ohio, and regularly travels to Miami, Florida, for
eight months each year and the other four months travels to Dallas, Texas. Miami is the
employee’s main place of work because he/she spends most of his/her time there and earns most
of his/her income there; thus, the travel reimbursements for the Miami location are taxable.
IRM 1.32.11.9, Taxable Travel Reimbursement, requires that a manager who knows, or can
reasonably expect, that an employee will receive a LTTT assignment must ensure that the LTTT
is authorized on Form 12654, Authorization for Long-Term Taxable Travel, and that the
Form 12654 is issued and signed by the manager and employee each calendar year of the LTTT
assignment. Similarly, the IRM requires that employees must ensure that they use the
appropriate purpose code (which indicates the expenses claimed are taxable) and submit their
vouchers via GovTrip9 promptly. The taxable situation results in the IRS withholding
appropriate taxes from the employee’s travel reimbursement. The employee will receive a
Form W-2, Wage and Tax Statement, from the IRS for the amount of taxable reimbursements
received and amounts withheld for taxes.
The IRS pays an Income Tax Reimbursement Allowance to employees incurring an additional
tax liability as a result of long-term travel reimbursements. The Income Tax Reimbursement
Allowance is designed to reimburse employees for Federal, State, and local income taxes. It
does not reimburse employees for Federal Insurance Contributions Act (FICA) taxes or Medicare
taxes.
Until January 2012, the IRS did not have a control in place to ensure that travelers and managers
properly identify and report the LTTT. In 2011, the IRS initiated several pilot reviews of travel
data for IRS employees to develop procedures for identifying the potential LTTT. The Beckley
Finance Center (BFC)10 completed the first pilot review in July 2011 for all IRS employees who
traveled from January to June 2011. The review identified 650 employees with travel that could
be LTTT but was not classified as such. The BFC sent e-mails to each employee with potential
LTTT, which reminded the employees of the LTTT requirements. In September 2011, the BFC
conducted a similar review that only related to IRS executives. The BFC completed another
pilot review in March 2012 for travel from July 2011 to February 2012. According to
information provided by the CFO, the pilot reviews identified two executives with travel that
should have been classified as LTTT. The CFO reported that they retroactively calculated the
tax withholdings for Calendar Year 2011 and issued the appropriate Form W-2.



9
  GovTrip is a computer application and database that provides IRS travelers with automated travel planning and
reimbursement capabilities. The system also includes authorization, reservation, and vouchering capabilities.
10
   The BFC is part of the CFO’s Financial Management Office. It processes all administrative accounts payable,
accounts receivable, and collections; and prepares and reconciles all financial reports and accounts.
                                                                                                           Page 4
                                     Internal Revenue Service’s
                                 Executive Long-Term Taxable Travel



In early 2012, the CFO required such reviews on a quarterly basis, and the BFC officially
assumed the responsibility of reviewing the employees’ travel history in GovTrip to identify
potential LTTT. The BFC uses a quick and simple formula by initially selecting those travelers
who traveled more than 50 percent of the number of weeks available during the review period.
For example, given that there are 12 weeks in a quarter, any travelers who take more than
six trips during the review quarter would be subject to further review. The BFC would then
contact the travelers, and the travelers’ managers if warranted, to obtain additional facts and
circumstances related to the travel assignments. Should the travel be classified as the LTTT, the
BFC would calculate the applicable taxes retroactively to the effective date of the LTTT.
While the reviews conducted by the BFC have identified cases where employees may not have
reported the LTTT, we found that the IRS has not documented the procedures for conducting the
reviews. Additionally, the methodology for conducting the reviews could be enhanced to
increase the likelihood of identifying unreported LTTT. The reviews are based on the number of
trips made during the review period instead of the number of days traveled, and a determination
based on the number of trips could be misleading and cause unnecessary follow-up. For
example, a traveler could make 30 two-day trips to Washington, D.C., over a 52-week period. In
this case, the traveler would have spent 60 days in Washington, D.C., but the IRS would initially
consider the travel as potentially taxable based on its screening criteria (30 trips out of the
possible 52 trips in a one-year period is more than 50 percent). On the other hand, a traveler
could make 20 ten-day trips to Atlanta, Georgia, over the same period. In this case, the traveler
would have spent 200 days in Atlanta, but the IRS would not detect this potential LTTT because
20 trips out of the possible 52 trips are less than 50 percent.
In addition to the guidance included in the IRM and the quarterly reviews conducted by the BFC,
the CFO issued a memorandum to the IRS executives on April 23, 2013, reminding them of the
LTTT rules that may affect them if they meet the requirements detailed in IRM 1.32.11.9. The
memorandum states that it is imperative that all executives incurring the LTTT comply with the
requirements outlined in the IRM.

Recommendation
Recommendation 1: The CFO should modify and document procedures for conducting
periodic reviews to determine whether employees and managers accurately determine and report
the taxability of long-term travel.
       Management’s Response: The IRS agreed with this recommendation. The IRS
       CFO plans to modify and document standard operating procedures for conducting
       periodic reviews to determine whether employees and managers accurately determine and
       report the taxability of long-term travel.




                                                                                           Page 5
                                             Internal Revenue Service’s
                                         Executive Long-Term Taxable Travel



A Limited Number of Executives May Have Had Long-Term Taxable
Travel but Failed to Report It
In FY 2011 and FY 2012, there were 351 and 373 executives in the IRS, respectively. In order
to determine whether IRS executives reported taxable travel in accordance with guidance
included in the IRM and Internal Revenue Code, we first identified executives with travel
patterns that could be taxable. While the IRM and Internal Revenue Code do not set a specific
limit that can be used to determine the taxability of travel, we established a benchmark of
90 days of travel to one location for testing purposes. During FY 2011 and FY 2012, only
28 executives traveled to one destination 90 days or more.
We also reviewed the travel records of three other executives who traveled to one destination
less than 90 days and whose travel the IRS had classified as LTTT. In total, we reviewed the
travel records for 31 executives, less than 10 percent of the IRS executives employed, to
determine whether their travel appeared to be properly classified as taxable or nontaxable.
We agreed with the classification for 19 executives (three were classified as LTTT and 16 as
nontaxable). However, of the remaining 12 executives, we concluded that the tax classification
of travel for nine executives appeared to be incorrect based on their travel pattern and the IRS’s
validation that the travel was taxable. For the remaining three executives, the classification was
not made in a timely manner as required by IRM 1.32.11.9, Taxable Travel Reimbursement.
Figure 1 summarizes the results of TIGTA’s case review.
                  Figure 1: Summary of FYs 2011–2012 Case Review Results

                                                        IRS Determination11
      LTTT Determinations
       Correct or Incorrect      Taxable and Timely      Taxable but Untimely12        Nontaxable   Total

              Correct                      3                         3                     16        22

              Incorrect                                                                    9         9

                                                                                                     31
     Source: TIGTA analysis of travel vouchers and CFO data.

We concluded that the travel classification for nine executives appeared to be taxable because the
employees continuously traveled for assignments lasting more than one year. Of the nine cases
that appeared to have been incorrectly classified as nontaxable, the average days of travel was
140.5 per case, and the average travel reimbursements was $51,420.


11
     The determinations at the time of this review.
12
     The classification was not made in a timely manner as required by IRM 1.32.11.9(3).
                                                                                                      Page 6
                                           Internal Revenue Service’s
                                       Executive Long-Term Taxable Travel



We also concluded (and the IRS validated) that the LTTT classification for three cases was not
made in a timely manner because the traveler and his/her manager did not identify the LTTT
situations at the beginning of the travel assignments or when it became apparent that the travel
would exceed one year. This resulted in the travelers’ untimely reporting of the travel taxable
status and underreporting of the employment tax withholdings from their travel reimbursements
at the time the vouchers were filed. The CFO reported that the correct tax withholdings were
ultimately and retroactively computed when management discovered the situation.
LTTT is taxable under the Internal Revenue Code,13 so not classifying LTTT accurately violates
established tax reporting requirements. When the employee submits his/her travel vouchers via
GovTrip with the correct purpose code, the system calculates the applicable Federal, State,
Medicare, and FICA taxes at the following percentages:14
        Federal Tax: 25 percent
        State Tax: Varies by State
        Medicare Tax: 1.45 percent
        FICA Taxes (if applicable): 6.2 percent
Additionally, a withholding tax allowance (calculated at 33.33 percent of the total taxable
expenses claimed) is applied. The allowance is paid to reimburse the employee for the Federal
taxes withheld. Figure 2 illustrates an example of tax calculations for a hypothetical traveler
living in a State with no income tax and an LTTT voucher of $1,900.15




13
   While considered taxable, reimbursements for LTTT do not apply to the aggregate pay limitation included in
5 U.S.C. § 5703(d), which limits pay for members of the Senior Service and employees in senior-level, scientific, or
professional positions to no more than the annual compensation payable to the Vice President of the United States.
14
   State taxes are withheld at various rates depending on the individual States’ annual income tax determination.
15
   The travelers’ income level and filing status are not germane for determining the amounts to be withheld.
                                                                                                            Page 7
                                                Internal Revenue Service’s
                                            Executive Long-Term Taxable Travel



                            Figure 2: Tax Calculations on LTTT Vouchers
      1a.   Nontaxable Reimbursable Voucher Total                                                           $    0.00
      1b.   Taxable Voucher Total                                                                           $1,900.00
       2.   Taxable Third-Party Payments (i.e., airline payments charged to corporate account)              $    0.00
       3.   Total Amount of Taxable Reimbursements (Line 1b plus Line 2)                                    $1,900.00
       4.   Withholding Tax Allowance (33.33% of Line 3)                                                    $ 633.33
       5.   Total Income to Employee (Line 3 plus Line 4)                                                   $2,533.33
       6.   Federal Tax Withholding on Total Income (25% of Line 5)                              $ 633.33
            State Tax Withholding on Total Income                      State = TX                $ 0.00
       7.
            (a percentage of Line 5)
       8.   Medicare Tax on Total Income (1.45% of Line 5)                                       $ 36.73
       9.   FICA Taxes on Total Income (6.2% of Line 5)                                          $ 157.07
      10.   Total Withholdings on Income (Total of lines 6 through 9)                                       $ 827.13
      11.   Net Taxable Amount Due to Traveler (Line 1b plus Line 4 minus Line 10)                          $1,706.20
   Source: Example of tax calculations on a LTTT voucher in GovTrip.

At the end of the year when employees file their Income Tax Reimbursement Allotment
vouchers and the total annual income and tax filing status are known, the IRS computes the exact
amounts of Federal and State income taxes, and Medicare and FICA taxes, and issues
appropriate Forms W-2. The IRS is also responsible for paying the taxing authorities both the
employer and employee portions of the taxes.
Without an effective periodic assessment and management review of the executives’ travel
activities, the IRS cannot ensure that its executives’ travel is properly classified as LTTT. The
inaccurate reporting of LTTT resulted in the executives’ potentially underreporting income and
Federal, State, Medicare, and FICA taxes.
During the course of our review, the IRS agreed with our preliminary assessment after
considering the facts and circumstances related to the incorrect or late LTTT determinations. As
of the end of August 2013, the IRS was in the process of identifying the appropriate corrective
actions.

Recommendation
Recommendation 2: The CFO should annually inform or remind IRS employees of the
policies and procedures related to LTTT and travelers’ and managers’ responsibility to
accurately determine whether travel may be taxable.
       Management’s Response: The IRS agreed with this recommendation. The IRS
       CFO plans to annually issue a reminder to employees reemphasizing existing LTTT
       procedures and reminding travelers and managers of their responsibility to accurately
       determine whether their travel may be taxable.




                                                                                                                    Page 8
                                            Internal Revenue Service’s
                                        Executive Long-Term Taxable Travel



                                                                                                      Appendix I

          Detailed Objective, Scope, and Methodology

The objective of our review was to determine whether the IRS has established guidance and
procedures so that senior executives and their managers know when overnight long-term travel is
subject to taxes.1 To accomplish this objective, we:
I.       Identified LTTT policy and procedures.
         A. Reviewed Federal Travel Regulation 302-3.502(b),2 Revenue Ruling 93-86,3 and the
            IRS Internal Revenue Manual (IRM)4 related to travel expense reimbursements that
            are subject to income taxation.
         B. Determined whether the IRS has an adequate LTTT policy and guidance in place.
II.      Assessed the IRS’s efforts to ensure that executive travelers comply with the LTTT
         requirements.
         A. Identified the travelers whose travel has been classified as LTTT and determined the
            timeliness, appropriateness, and relevant actions taken to effect the LTTT
            determinations.
         B. Identified the travelers whose travel appeared to be potential LTTT and the reasons
            for nonclassification determinations.




1
  The criteria used to determine the taxability for long-term local travel are different from the criteria used for
overnight travel. We did not include local travel in the scope of this review.
2
  The Federal Travel Regulation is the regulation contained in 41 Code of Federal Regulations Chapters 300 through
304, which implements statutory requirements and executive branch policies for travel by Federal civilian
employees and others authorized to travel at Government expense.
3
  Rev. Rul. 93-86, 1993-2 C.B 71, 1993-40 I.R.B. 4.
4
  The IRM is the IRS’s primary official source of instructions to staff relating to the administration and operations of
the IRS. It contains the directions employees need to carry out their operational responsibilities.
                                                                                                                Page 9
                                    Internal Revenue Service’s
                                Executive Long-Term Taxable Travel



                                                                     Appendix II

                 Major Contributors to This Report

Kevin P. Riley, Director, Inspections & Evaluations
James A. Douglas, Supervisory Evaluator
Jacqueline D. Nguyen, Lead Auditor




                                                                          Page 10
                                 Internal Revenue Service’s
                             Executive Long-Term Taxable Travel



                                                                       Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Assistant Deputy Commissioner for Operations Support OS
Human Capital Officer OS:HC
Deputy Chief Financial Officer OS:CFO
Associate Chief Financial Officer for Financial Management OS:CFO:FM
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC




                                                                             Page 11
                                            Internal Revenue Service’s
                                        Executive Long-Term Taxable Travel



                                                                                                   Appendix IV

         Overnight Long-Term Taxable Travel Flowchart




    Source: TIGTA analysis of IRM 1.32.11.9, Taxable Travel Reimbursement,1 requirements.




1
  The IRM is the IRS’s primary official source of instructions to staff relating to the administration and operations of
the IRS. It contains the directions employees need to carry out their operational responsibilities.
                                                                                                              Page 12
                                            Internal Revenue Service’s
                                        Executive Long-Term Taxable Travel



                                                                                     Appendix V

          Long-Term Taxable Travel Law and Provisions

Section 162(a)(2) of the Internal Revenue Code allows a deduction for ordinary and necessary
business expenses paid or incurred in carrying on a trade or business, including traveling
expenses while away from home in the pursuit of a trade or business. However, travel expenses
are not deductible under this section unless the expenses are incurred while “away from home”
overnight. The deductibility of travel reimbursements is contingent on whether travel is away
from home and the period of time the taxpayer expects to be away from home. According to
Revenue Ruling 93-86,1 a taxpayer’s “home” is generally considered to be located at:
      1) The taxpayer’s regular or principal (if more than one regular) place of business.
      2) If the taxpayer has no regular or principal place of business, then at the taxpayer’s abode
         in a real and substantial sense (that is, a residence where the taxpayer maintains certain
         personal and business connections).
Revenue Ruling 93-86 adds that more important factors to be considered in the determination of
a taxpayer’s principal place of business are: the total time ordinarily spent by the taxpayer at
each business post, the degree of business activity at each business post, and whether the
financial return in respect to each post is significant or insignificant.
If employment away from home in a single location is realistically expected to last (and does in
fact last) for one year or less, the employment is temporary in the absence of facts and
circumstances indicating otherwise, and reimbursements for travel expenses related to travel to
that location are not taxable. If employment away from home in a single location is realistically
expected to last for more than one year or there is no realistic expectation that the employment
will last for one year or less, the employment is nontemporary, and reimbursements for travel
expenses related to travel to that location are taxable. For a taxpayer who is employed at more
than a single location for more than one year, the taxpayer’s “home” is the taxpayer’s principal
place of business.




1
    Rev. Rul. 93-86, 1993-2 C.B 71, 1993-40 I.R.B. 4.
                                                                                             Page 13
                                             Internal Revenue Service’s
                                         Executive Long-Term Taxable Travel



                                                                                                     Appendix VI

                          Fiscal Years 2011 Through 2012
                               Case Review Results

                                         FY 2011                               FY 2012
                               Travel                                Travel
                              Days to                  Decision     Days to                  Decision     2-Year
                  Single       Single    IRS LTTT     Correct or     Single    IRS LTTT     Correct or   Combined
                                                                1
    Executive   Destination   Location    Decision    Incorrect     Location    Decision    Incorrect     Results

                Washington,
       A                        290       Taxable      Correct*       133       Taxable      Correct*     Correct*
                DC
                Washington,
       B                        238       Taxable      Correct        282       Taxable      Correct      Correct
                DC
                Washington,
       C                        213      Nontaxable    Correct                                            Correct
                DC
                Washington,
       D                        193       Taxable      Correct*       186       Taxable      Correct      Correct*
                DC

       E        Atlanta, GA     188      Nontaxable    Correct                                            Correct

                Washington,
       F                        179      Nontaxable    Incorrect      111      Nontaxable    Incorrect   Incorrect
                DC
                Washington,
       G                        174      Nontaxable    Incorrect      107      Nontaxable    Incorrect   Incorrect
                DC
                Washington,
       H                        173      Nontaxable    Incorrect                                         Incorrect
                DC
                Washington,
        I                       172       Taxable      Correct        187       Taxable      Correct      Correct
                DC
                Washington,
        J                       164      Nontaxable    Correct        96       Nontaxable    Correct      Correct
                DC
                Washington,
       K                        160      Nontaxable    Incorrect      166      Nontaxable    Incorrect   Incorrect
                DC
                Washington,
       L                        134      Nontaxable    Incorrect      116      Nontaxable    Incorrect   Incorrect
                DC
                Washington,
       M                        132      Nontaxable    Incorrect      129      Nontaxable    Incorrect   Incorrect
                DC
                Cincinnati,
       N                        126      Nontaxable    Incorrect      173      Nontaxable    Incorrect   Incorrect
                OH




1
  Correct* – Although correct, the classification was not made in a timely manner as required by IRM 1.32.11.9(3).
The IRM is the IRS’s primary official source of instructions to staff relating to the administration and operations of
the IRS. It contains the directions employees need to carry out their operational responsibilities.
                                                                                                              Page 14
                                          Internal Revenue Service’s
                                      Executive Long-Term Taxable Travel




                                       FY 2011                                   FY 2012
                            Travel                                 Travel
                           Days to                   Decision     Days to                       Decision     2-Year
               Single       Single     IRS LTTT     Correct or     Single        IRS LTTT      Correct or   Combined
                                                              1
 Executive   Destination   Location     Decision    Incorrect     Location        Decision     Incorrect     Results

             Washington,
    O                         117      Nontaxable    Correct                                                Correct
             DC
             Washington,
     P                        116      Nontaxable    Incorrect         96        Nontaxable      Correct    Incorrect
             DC
             Washington,
    Q                         112      Nontaxable    Correct                                                 Correct
             DC
             Washington,
     R                        111      Nontaxable    Incorrect                                              Incorrect
             DC
             Washington,                                                           Non-
     S                        108      Nontaxable    Correct           96                        Correct    Correct
             DC                                                                   Taxable

     T       Atlanta, GA      101      Nontaxable    Correct                                                 Correct

             Washington,
    U                         96       Nontaxable    Correct                                                 Correct
             DC
             Washington,
    V                         95       Nontaxable    Correct                                                 Correct
             DC
             Washington,
    W                         79        Taxable      Correct           198        Taxable        Correct    Correct
             DC
             Washington,
    X                                                                  93        Nontaxable      Correct    Correct
             DC

    Y        Atlanta, GA                                               59        Nontaxable      Correct    Correct

             Washington,
     Z                                                                 108       Nontaxable      Correct    Correct
             DC
             Washington,
    AA                                                                 39         Taxable       Correct*    Correct*
             DC
             Washington,
    BB                                                                 186       Nontaxable        Yes      Correct
             DC
             Washington,
    CC                                                                 99        Nontaxable        Yes      Correct
             DC
             Washington,
    DD                                                                 128       Nontaxable        Yes      Correct
             DC
             Washington,
    EE                                                                 138       Nontaxable        Yes      Correct
             DC
                                                                   9 Incorrect
             Total Combined 2-Year Results                        22 Correct (19 timely, 3 untimely)
                                                                  31
Source: TIGTA analysis of travel vouchers and CFO data.




                                                                                                                Page 15
                Internal Revenue Service’s
            Executive Long-Term Taxable Travel



                                                 Appendix VII

Management’s Response to the Draft Report




                                                       Page 16
    Internal Revenue Service’s
Executive Long-Term Taxable Travel




                                     Page 17
